No. 20-1195
IN THE SUPREME COURT OF THE UNITED STATES
_________________
KANSAS NATURAL RESOURCE COALITION, PETITIONER
v.
DEPARTMENT OF THE INTERIOR, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via email and first-class mail,
postage prepaid, this 14th day of May, 2021
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,772
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
May 14, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 14, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1195
KANSAS NATURAL RESOURCE COALITION
DEPARTMENT OF THE INTERIOR, ET AL.
CHRISTINE CARLETTA
KING & SPALDING LLP
1700 PENNSYLVANIA AVE, NW
WASHINGTON, DC 20006
CCARLETTA@KSLAW.COM
JAY R. CARSON
THE BUCKEYE INSTITUTE
88 EAST BROAD STREET
STE. 1300
COLUMBUS, OH 43215
614-224-4422
J.CARSON@BUCKEYEINSTITUTE.ORG
KENNETH W. ESTES
CALIHAN LAW FIRM
P.O. BOX 1016
GARDEN CITY, KS 67846
620-276-2381
KESTES@CALIHANLAWFIRM.COM
JEFFREY W. MCCOY
PACIFIC LEGAL FOUNDATION
930 G. STREET
SACRAMENTO, CA 95814
916-419-7111
JMCCOY@PACIFICLEGAL.ORG
ROBERT D. POPPER
JUDICIAL WATCH, INC.
425 THIRD STREET SW
WASHINGTON, DC 20024
202-646-5172
RPOPPER@JUDICIALWATCH.ORG

ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

VIA EMAIL

